LAW OFFICES
RICHARD H. MARKOWITZ
( I 979-20 16)

ALLENTOWN OFFICE
PARKVIEW EAST BUILDING
SECOND FLOOR
I 2 I NORTH CEDAR CREST BOULEVARD
ALLENTOWN, PA 18104
,
(610) 820-9531

MARKOWITZ & RICHMAN

STEPHEN C. RICHMAN *
OUINTES D. TAGLIOLI
JONATHAN WALTERS ++
THOMAS H. KOHN ***
MATTHEW D. AREMAN
R. MATTHEW PETTIGREW, JR. **
PETER H. DEMKOVITZ
CLAIBORNE S. NEWLIN +++

123 SOUTH BROAD STREET
SUITE 2020
PHILADELPHIA, PENNSYLVANIA 19109

NEW JERSEY OFFICE
24 WILKINS AVENUE
HADDONFIELD, NJ 08033
(856) 61 6-2930

(215) 875-3100
FAX (215) 790-0668
WWVV.MARKOWITZANDRICHMAN.COM

OF COUNSEL
PAULA R. MARKOWITZ
RICHARD KIRSCHNER *
M. KAY GAH i HELL •

NEW YORK OFFICE
39 BROADWAY
SUITE 1620
NEW YORK, NY 10006
(800) 590-4561

215-875-3128

ALSO ADMITTED IN NEW YORK
AND DISTRICT OF COLUMBIA
ALSO ADMITTED IN NEW JERSEY
+ ALSO ADMITTED IN DISTRICT OF COLUMBIA
ALSO ADMIRED IN DELAWARE AND NEW JERSEY
** ALSO ADMITTED IN NEW JERSEY AND NEW YORK
*•` ALSO ADMITTED IN VIRGINIA
AND DISTRICT OF COLUMBIA
ALSO ADMITTED IN DISTRICT OF COLUMBIA
AND NORTH CAROLINA

February 3, 2021
DELAWARE OFFICE
1225 NORTH KING STREET
SUITE 804
WILMINGTON, DE 19801
(302) 656-2308

VIA OVERNIGHT DELIVERY ONLY
The Honorable Scott Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

File No: 57-12-1897

City of Newark v. Fraternal Order of Police, Newark Lodge No. 12
Supreme Court of the United States - Dkt. No. 20-989

Dear Mr. Harris:
Please be advised this office represents the respondent, Fraternal Order of Police, Newark
Lodge No. 12 ("FOP") in the above-captioned matter. The FOP's response to the City of
Newark's Petition is currently due on or before February 25, 2021. I write to request a thirty
(30) day extension of time to and including March 29, 2021, pursuant to S. Ct. Rule 30.4, to file
the FOP's response. This is the FOP's first request for an extension and good cause exists for
this request because of the undersigned's hearing schedule in February/March and the partial
closure of this firm's office due to COVID-19 restrictions.
I note for the record that I am not currently a member of the Bar of the Supreme Court,
and I acknowledge that any submission in response to the Petition must be filed by a Bar
member.
RECEWED

FEB -8 202i

Thank you in advance for your consideration of this request.
Res de; tfu l Submitted,

A

W D.

OFFICE OF THE CLERK
SUPREME COURT, U.S.

AN

MDA:cat
Alan Silber, Esquire
cc:
(VIA OVERNIGHT DELIVERY AND EMAIL: asilber@pashmanstein.com)

CERTIFICATE OF SERVICE

Pursuant to Supreme Court rule 29, the undersigned hereby certifies that on February 3,
2021, a copy of the foregoing request for extension of time to respond to the City of Newark's
Petition for Certiorari was sent via email and UPS Overnight Delivery to counsel for the
Petitioner:
Alan Silber, Esquire
Pashman Stein Walder Hayden, P.C.
Court Plaza South
21 Main Street, Suite 200
Hackensack, NJ 07601-7054
Email: asilber@pashm nstein.com

MA TH D. AREM , SQUIRE

Dated: February 3, 2021

